CERTIFICATE OF SERVICE
I hereby certify that on July 17, 2020, one originally signed Petition for
Writ of Certiorari was dispatched for delivery to the Clerk's Office of the
United States Supreme Court via First Class Priority Mail at the following
address:
Clerk
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
On this same date one copy of the Petition for Writ of Certiorari was sent
to the following for delivery via First Class Postal Mail:
Kenan G. Loomis
Cozen O’Conner
1230 Peachtree Street, N.E.
The Promenade, Suite 400
Atlanta, GA 30309
Respectfully submitted, this 17th day of July, 2020.

William A. Anderson
Appellant - Pro Se

Mailing Address:
P.O. Box 311872
New Braunfels, TX 78131
(912) 441-1063
j ustme will@yahoo. com

STATE QvTy___
COUNTY

The foregoing instrument was acknowledged before
.
me this Ur day oCtANf . 20^ , by
h.AvdOJ*?*'

DILLON L. VAN ZANDT

/C£MNotary
Public'Sta1e of Texas
Comm. Expires 02-26-2024
Notary ID 132376962

Notary Public’s Signature
Notary llame
Personally Known_____ OR u.
.
Type of Identification Produced!
,

